                   EFFECTS OF           1988   RURA'

 HOSPITAL CLOSURES 
                           ON ACCESS

                                TO MEDICAL CARE





          tlWJCES.
                       lt.r




'0



          Vd,1a



OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                                        AUGUST 1990
            EFFECTS OF 1988 RURAL

 HOSPITAL        CLOSURES ON  ACCESS
               TO MEDICAL CARE





                           Richard P. Kusserow
                           INSPECTOR GENERAL




OEI-0489-00742                                   AUGUST 1990

                                          EXECUTIVE SUMMARY

PURPOSE

This inspection was conducte to determe how access to medical care was afected when
rual hospitas closed in 1988.



BACKGROUND

In recnt year, the public and           Congrss have expressed conce about the closur of hospitas.
The Ofce of Inspector Genera, Ofce of Evaluation and Insptions (OEI), examed the extent
and natu of 1987 hospita closurs, releasing its repo "Hospita Closurs: 1987, " in May 1989.
That repo prompte           fuer
                             analysis, includig a follow-up study, "Hospita Oosurs: 1988, " and
ths study of the "Efects of 1988 Rur Hospita Oosurs on Accss to Medcal Car. " The
 Hospita Closures: 1988" study found that           ru
                                                 hospita tht closed had fewer bed than the
national averge and thatfe patients ha ben using them in the years pror to closing. The
average day census of          ru
                             hospitas tht closed in 1988 was only 11 patients.


Ths report also provides tiely inormation supporve of Secetar Sulvan s recently set
objective for the Deparent of Health and Human Serces to improve access to health care.

FINDINGS

A surey was conducted               of households in communities wher rual hospitas dosed in 1988.
The surey found that:

      Most residents do not expss a serious problem with acss to mecal car since closur
      the hospita in their communty. However, close exaation of the surey results reveals
      that whether the residents of a communty wher a
                               l is largely
                                                                 ru
                                                                 hospita closed believe they have
      serious access problems               detered by proximity    to another hospita.

      In comunties           with    a nearby hospital (where there is a hospita   sti open withn 10
      miles):

                     Only 11 percent of residents express a serious problem gettig      hospita care
                     which they attbute to closure of the hospital.


                     74 percent of residents say they want the hospital reopened.

                     28 percent of those who received inpatient or emergency care in a hospital since
                     mid- 1984 actually used the now- closed hospital.

                     23 percent of households, most citing higher quality of care , now would bypass
                     the closest hospital for one more than ten mies away.
       In communities       without   a nearby hospital (where the nearest hospital is now over 10
       mies away):



                   40 percent of residents say they have a serious problem gettg    hospita care due
                   to closure of the hospita.

                   94 percent of residents say they want the hospital reopened.

                  54 percent of those who actualy received inpatient or emergency care in a
                  hospital since mid- 1984 used the now- closed hospita. Those who bypassed that
                  hospital say the tratment they neeed was not provided there , or their
                  physicians referrd them to other facilties.

                  While most have closer hospitals, over hal say they wi travel over 30 mies for
                  hospital care, citig better quality or physician refen-al as the reason.

RECOMMENDATIONS

Recent legislation gave the Deparent of Health and Huma Servces responsibilty for
several new program. The progrs provide assistace to rual communities for maitaing
access to medcal care in the face of hospita closurs. Our reommendations focus on the
programs in The Health Care Financing Admnistrtion (HCFA) and the Public Health Service
(PHS).

The Admstrator of HCFA should develop precise crteria for tagetig Rural Health Car
Transition Grants. In selectig grantees under ths program, a higher priority should be given
to remote hospitals. Furer, HCFA should assur that the ftrst seven states chosen to
parcipate in the Essential Access Community Hospita (EACH) progr wi adequately test
the effect of the program on access to care. Our fmdings indicate that to do so, remote
hospitas must be included among the initial        sites.



The PHS and HCFA should consult with each other on criteria for and award of grants and
technical assistace in the simlar        programs which each agency admnisters.


COMMENTS

The draft report was circulated for comment to the Assistant Secretar for Health , the
Admstrator of HCFA, the Assistant Secretar for Planning and Evaluation (ASPE), and the
Assistat Secretar for Public Affairs in April 1990. The comments from ASPE support the
fmal recommendations. Based on comments from HCFA and PHS, we clared the wording
of the recommendations and deleted a recommendation regardig placement of National
Health Service Corps members. A number of technical suggestions were also incorporated
into the report.

                                                                                                   ..--..
                                                               ............... ............. ..........        ..........
                                                                                           ............................
                                                                                   .... ..........  .._ .....
                                                                                                          .............-
                                                                                                              ....... ......
                                                                                                                      ............
                                                                                                                              ...........
                                                                                                                               .............
                                                                                                                            .....  .......
                                                                                                                             ........  ................................
                                                                                                                                           ....        ....-....................
                                                                                                                                                ....................
                                                                                                                                                ..............
                                                                                                                                           ..........-         .... ...




                                                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION. .... .... ........ ...........                                                                                                                   ...... ............... ...... .... ........ ... 1

     Pu rpose II.. II II.. II ... II II.. II II.. II II II II IIII.. II II II II IIII.. II ... II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II II IIII II IIII IIII.. II II.. II II.. II II II.. II II.. II II.. II II IIII.. .... 1
     Backg ra u nd II...... II II.. II ... II II.. II... II
                 II II IIII II.. II II.. II II.. II II.. II ... II II.. II... II II.. II II.. II II.. II II.. II II.. II II II II... II II.. II II II IIII II.. II II.. II II.. II

     SeD pe II II" II II et. IIII II IIII II IIII IIII.. II II II.. II.. II II II.. II.. II II.. II II.. II II.. II II.. II II...... II

                                                                                                                                      II.. II II.... ... II.. II II.. II II.. II II.. II II.. II II II.. II II.. II II.. II II.. II... II 2

     Meth OdD logy II.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II ... II"'. II II.. II II.. II ... II II.. II II.. II II.. II II.. II II.. II II II.. II II II IIII II IIII IIII... 3


FI N DI NGS.             .11.... II. II...........                                                                                                                                                                              ..11.... 4

     Proximity is the Key Factor .....................--....................-................................... 4
     Most With . a Nearby Hospital Say
        They Do Not Have Serious Access Problems- ...-............... ................. ..... 5
     Many Without a Nearby Hospital
        Express Serious Access Probl-ems ..".."..118.."..-.".."......"...".............."."". 7

R ECO M M EN D A TIO NS ...........                                                                                                                                                                               ........ ... 10
COMMENTS ON DRAFT REP' ORT ................................


APPENDIX A
   Department of Health oand Human Services
     Criteria Related to Medical ProviderShortges........................._.....



APPENDIX B

     Demographics of -Respondents .............                                                                                                ............... ................................ B­


APPENDIX C
     Methodology and Sample Selection .............................................................. C-1

EN D NOTES                 ......... ... ... .......... ............ ......                                                                                                                                                    .... D­

                                    INTRODUCTION


PURPOSE

This inspection was conducted to determine how access to medcal care was afected when
ru   hospitas closed in 1988.


BACKGROUND

National Criteri Related to   Medical Provir Shortges

The Deparent of Health and Human Servces (HS) has adssed access to health care in
rual areas though a number of programs. In parcular, it has developed stadads to
designate health manpower shortge areas and to qual hospitas as sole community
providers for enhanced Medcar reimburement. Although these measurs presume a
generaly accepte stadad, they do not explicitly state what constitutes adequate access to
medcal car. (The crteria related to health provider shortges appear in appendi A.

These crteria do not consider factors which var from one individual to another, such as
distance frm one s residence to a hospita or the tie it taes to travel the distace.
Judgments regardig the adequacy of access to medcal servces must consider factos such     as
individuals ' actual distace from and their ease of obtaing car. Sureys have been
conducted by HHS and others to gather ths individual and subjective information from
samples of the U.s. population.

Surveys on Access

Researchers, in measurg access to medcal car, have examined hospita discharge and
fmancial records, interviewed health experts, and sureyed the population. These studies have
identied factors which afect individuals ' access to care, includig mobilty, existence of a
personal physician, severity of ilness, income, and insurance coverage.

None of the existig studies have measurd the effects of hospita closur on access to car in
ru    communities. Nor have prior national studies determined whether rual communty
residents themselves judge their access to care to be adequate.

Studies of Hospital Closure

In Apri1989, the Offce of Inspector General released a report on the extent and natu of
1987 hospita closurs in the United States. The report prompted furer analysis of the
hospita closure phenomenon. Follow-up studies (planned or in process) include:

       Hospital Closure: 1988" and " Hospital Closure: 1989;


       Access to Care in Urban Aras Where Hospitals Have Closed;
       Hil Bunon Hospitas ' Community Servce Obligations;
       The Effects of Hospita Mergers; " and
      ths study on the "Effects   of 1988 Rural Hospita Closurs on Access to Medcal Car.

Recent Legislation Related to Hospital Care in Rural Areas

In 1987, Congrss passed legislation authorizing the Health Care Financing Admnistration
(HCFA) to establish the Rural Health Care Trasition Grants Program. The program awards
grants to smal rual hospitas to modfy the tye and extent of their services, and to mae
other changes for improving the quality of car. The Essential Access Community Hospita
(EACH) Program was authori in the Omnbus Budget Reconcilation Act of 1989. The
program wil provide grts for up to seven states to crate one or more rual health networks
to improve access to hospita and other health services for   ru residents. The program is
                                  ru
(caled Rur    Pr
designed to test the concept of a   health network in which a new tye of small hospita
                       Car Hospita, RPCH) provides emergency and temporar car, and
trsfers stabilze patits to a larger, centr hospita (termed ID EACH).


Furer, the Admstration s proposed 1991 Budget fuds the Offce of Rural Health Policy
$4 miion , an increase of $1 millon over the previous year. These additional funds
proposed to provide technical assistance to trubled ru  hospitas. The Offce wil be
developing a plan for providig assistace.

SCOPE

The unverse for ths study was households in communities where rual hospitas closed in
1988. Intervews were conducted with people who lived nea the closed hospita , and who
had reside in these communities at least 5 year.

Residents were asked about their access to inpatient and emergency care before and after the
hospital closed. Respondents provided information on eac instance of inpatient
hospitalation or emergency care (up to a maximm of five) durg the previous five years
for up to seven members of the household. (See appendi B for a descrption of the
respondents and their hospitaizations.

Inpatient hospita care wasdefmed as treatment for general conditions such as appendicitis or
pneumonia, rather than specialty care. Emergency car     was defined as tratment for an
accident or serious ilness. Since hospita closur, the source for emergency care could be a
provider other than a hospita. In this repon the term " medcal car " refers to these two
                                                                                         tyes
of care: inpatient and emergency.
METHODOLOGY

A stratified radom sample was pulled from phone ditories of 49 communities where
hospitas closed in 1988. Based on the presumption that access to care vared accordg to
proximity to an open hospita, the sample was stratied into two groups or " clusters. " Cluster
A consisted of communities that had a second hospita in town or with 10 miles. Cluster B
contaned communities where the nearst hospital is now (since the closure) over 10 miles
away.

The Social and Economic Sciences Research Center of Washigton State University
conducted telephone interviews in September 1989. The response rate was 69 percent.
(appendi C contans a detaed descrption of the study method.

In ths report, communties that sti   have a hospita   with 10 mies since the closur
tenned " communities with a nearby hospita. "   The converse, " communties without a nearby
hospita, " refers to those where the only hospita within 10 mies was the one that closed
                                                 FINDINGS


This surey of households            in communities where rual   hospitas closed in 1988   found that:

     Most residents do not express a serious problem with access to medcal car since
     closur of the hospital in their community. Whether closure causes serious access
     problems l is largely determned by  proximity to another hospital.

     Only 11 percent of residentswith a nearby hospita (where there is a hospita stil open
     within 10 mies) say they have a serious problem gettig hospital care which they
     attrbute to closure of the hospita.

     Forty percent of residents  without a nearby hospita (where the nearst hospita now is
     over 10 mies away) say they have a serious problem gettng hospita care and attbute
     it to closure of the hospital.

PROXIMITY IS THE KEY FACTOR

The impact of rual                            to medcal car diers signifcantly dependig
                           hospital closures on access
on proxity to another hospita. Twenty of the communities where a               ru
                                                                          hospita closed in
1988 have another hospita with 10 mies. In th remaig communities (29), the hospita
that closed was the only one within 10 mies. Only 11 percent of those with a nearby hospita
report a serious problem gettg medcal care due to the closure, whie 40 percent of those
without a nearby hospita say they have a serious access problem due to the closur. Analysis
of the data at the conclusion of the study revealed tht lOumies marked the most accurte
place for distiguishig the two groups.

It is importt to keep in perspective that most of the residents of communities where
hospitals closed in 1988 lived in those communities that have another hospital with 10
miles. In addtion , the rual hospitals that closed were smal. The "Hospita Closure: 1988"
study found that the hospitas that closed averaged 40.2 bed, which is hal the national
average for rual hospitas. The average occupancy rates for the closed facilties (26.
percent) were also below the national average. In fact, the average day census of rual
hospitas that closed in 1988 was only 11 patients.

This report presents findings for the two sample strata separately so that the experiences of
those with serious access problems ar not obscured by the grater number who had no such
problems.
MOST WITH A NEARBY HOSPITAL SAY THEY DO NOT HAVE SERIOUS
ACCESS PROBLEMS

In twenty of the communties where    ru
                                      hospitas closed in 1988, ther is another hospita
with 10 miles. A smal proporton of residents in these communties actualy use the
now-closed hospitas. Few now report havig a serious prblem gettg medcal car.


     How Do Opinions on ReOpening Compare to Prior Use?

Although 74 percent of households in these communties say they want the hospita reopened
only hal say they would use it. In fact, only 28 percnt of al those who used a hospita for
emergency or inpatient car between mid- 1984 and the tie the hospita closed actualy used
the now-closed facilty.



                 Should Hospital Be Reopened?            Did You Use Hospital
                        Would You Use It?                  Before It Closed?
                     Househods                                  Hopitalizions
               100                                                          100




                                                                   28%




                           . Wa   Ha To          &1 Wold Us      DI U8




The proportons of those who used the now-closed facilty for emergencies and for genera
inpatient car ar about the same. Th-        th
                                           percent of al emergency rom visits and 26
percent of al inpatient hospitations durg the study period were in the now-closed
hospita.

Those who bypassed the hospita prior to closur say they did so because the tratment they
neeed was not avaiable at that facilty, or because their physicians referr them elsewhere.
     How Many Have a Serious Problem with Acce?

Only 11 peent of residnts of communties with a neary hospita expss a serious problem
gettg gener inpatient hospita ca, .and 13     pent   have a serous prblem gettg
emergency  car  due to the closurs. These  smal     prons   ar not sursig, given that few
used the facilty when it was open and tht another hospita is sti opetig neary.

      Where Wil Residents Get Care in the Future?

Twenty-   th percent of households, most   citig higher   quaty of car, would bypass the
closest hospita for one more than ten mies away.

For emergency car, 19    pent of residents woul bypass the neast hospita.
Alost al of those who would choose to trvel beyond the clsest      hospita say they   would go
to another   ru   hospita. Only   nie percnt of househods picke    an uran hosita.

      Doe Income, Age or     Inrace Affec Whether Housholds Report a Serious
     Problem with Acc?

The demogrphic chartestics of the respdets wer             anyz to detejf ther wer
dierences in income, age orinmace of those who say thy have a :sous problem with
access to medcal car. The anSis revealed tht .households- with income below $25,894
the med income forro         ar  in 1988, mor fruently        rca
                                                                seo1lprblem gettg
hospita car than those with higher incoes.

                  Comparison of Households with Serious Accss Problems
                                     by Income Level
                                    Communities wi a Neay Hospital
                       Percent of Housholds w/Seus Proble



                                                            19%




                           IS Income above median     Income below median
Analysis also revealed dierences in the age of member of households repog a serious
access problem. A grter number of households with elderly membe (over age 65) repo a
serious problem gettg hospita car than households without elderly members.



          Comparison of Households with Serious Access Problems
                                    by Age of Members
                              Communities with a Nearby Hospitl
                 Percent of Housholds w/Serious Problem

                                                          23%




                                   With No Elderl BJ With Elder




Analysis of insurce coverge revealed a signcant dierence between households with
Medcar and those with private insurce who report a serious access problem. (Te
              viy
relationship is
        th
                         identical to the one depicte in the previous char on age.
Twenty-        percent of households with Medcar report a serious prblem gettg hospita
car compar to only 9       pent    with private insurce. The saple did not conta a
sufcient  number   of households   with Medcaid or with no insurce to include them in the
comparsons.

MANY WITHOUT A NEARBY HOSPITAL EXPRESS SERIOUS ACCESS
PROBLEMS

In 1988, 29 of the 49   ru hospitas that closed wer the only ones with 10         miles. In these
communties, a signcant proporon of the residents had use the now-closed hospitas.
Since closur, 40 percent   repor a serious problem gettg        medcal car and   attbute that to
the hospita closur.
     How Do Opinions on Reopening Compare to Prior Use?

Vlraly al residents (94 peent) of communties without a neary hospita want the hospita
to reopen. Seventy percent indicat they would use it if reened In fact, a sizable
proporton (54 percnt) of those who wer hospita or reeived emerency car in
hospita between mid- 1984 and the tie the hospita closed actualy             use the facty.

                 Should Hospital Be Reopened?            Did You Use Hospitl
                      Would You Use It?                    Before It Closed?
                   Households                                       Hospitizions
             100                                                                   100
                        94%




                                                                       54%




                          . W8     Hc To         rs Wold UI      IQ Dicit.




About the same   pronasofforcommunty
emergencies (58 pernt)
                                      residets use the now-close hospita for
                              gener inpatient ca             Those who bypassed that
                                                         (50 percnt).
hospita say they did so beause the tratment they      nee was not provided there, or their
physicians referr   them to     other facties.

     How Many Have a Serious Problem with Accs?

For pernt of residents in communties without a nearby hospita expss a serious problem
gettg genera   inpatient hospita car,      and attbute the    prblem to closur of the hospita.
Vlraly the same proporton (42 percent) report a serious problem gettg             emergency car
due to the closur. It was anticipated that more people would be seriously concerned about
access for emergency car than for general inpatient car followig the hospita closurs. In
many of these communities, emergency car is sti avaiable in close proxiity since the
hospita closure. The avaiabilty of emergency providers may have mitigated potential
problems with access to emergency care for many residents.
      Where Wil Residents Get Care in the Future?

Over hal of residents of communties that no longer have a nearby hospita say they wil go to
a hospita over 30 miles away for futue car. Almost al have a closer hospita; the ' 'Hospita
Closure: 1988" inspection found that in only four towns where a rual     hospita closed   is the
next hospita over 30 miles away.



Whe only six percent of the households sampled in communties without a nearby hospita
mUS  travel over 30 mies for general inpatient hospita care, 53 percent say they plan to do so.
The most often cited reasons for not using the closest hospita were qualty of care (42
percent) and physician referr (20 percent). Asked why they would choose the hospitas they
named, respondents commente:

       Because I trst   them, they ar   more up   to date, mor modern.

       Doctors are more qualed.

       Better hospita--update facilties--most doctors use it.

For emergency car, 36 percent of residents choose to travel over 30 mies.

                                          ru
In most cases , the hospital of choice is a  one. However, 35 percent of households
indicatf they would use an urban hospita over a closer   ru
                                                          one.

      Does Income, Age or Type of Inurance Affect Whether Households Report a
      Serious Problem with Access?

In communities without a nearby hospita, the proporton of households reportg       a serious
problem gettg hospita care does not var with:

      income above or below the medan;

      private insurance or Medcare; or

      presence or absence of elderly members in the household.
                                 RECOMMENDATIONS


Legislation has been enacte reently to give the Deparent of Health and Huma Servces
(HS) the means to assist   ru    communities to maintan access to medcal car in the face of
hospital closures. HHS should give higher priority in disttbuting resources for improving
access toru    medical care to communities whose residents, following closur of the hospita,
are most likely to have a serious access problem.

Health Care Financing Administratin

The HCFA admsters Rural Health Care Trasition        Grants and wil   manage the Essential
Access Community Hospital Prgram

Rural Health Care Transition Grants: The      Admstrator of HCFA should develop precise
guidelines for tageting the Rural Health Car Transition Grants. The guidelies should
discuss the issue of proxmntyof applicant hospitas to other hospitals. In selecting grantees
under this progr, a higher priority should be given to remote hospitas.

Essential Access Community Hospital (EACH): The Admnistrator of HCFA should assur
that the fIrst seven states chosen to parcipate in the EACH program will adequately test the
effect of the program on access to car. Our fidigs indicate that to test access remote
hospitals must be included among the intial sites. Furer, program regulations shoud
require states to specifIcaly address the access nes of elderly and low income residents in
the required state rual health plan.

Coordination of PHS and HCFA Responsibiliti

Since both the PHS and HCFAare responsible for adstration of        progr      for improving
access toru    health care, those agencies should consult with each other on criteria for and
award of grants and technical assistace to ru     aras. Specifcally, PHS and HCFA should
coordiate their activities regardig grants and technical assistace from the OffIce of Rural
Health Policy, the Rural Health Care Transition Grts program, and the EACH program
given that funds ar appropriated for all of these.
                                        COMMENTS ON DRAFT REPORT


The comments from the                 Assistant Secretary for   support our fmal
                                                                Planning         Evaluation


recommendations. Prviously, ASPE had also advised HCFA to develop crteria for tagetig
the Rur Health Car Transition Grants.

The    Assistant Secretary for    supports the recommendation regarg coordiation
                                            Health

between the Public Health Servce (PHS) and the Health Car Financing Adminstration. The
PHS did not concur with a recommendation in the drt report regardig the National Health
Servce Corps (NHSC). That recommendation caled for a modcation in the crteri for
placement of NHSC professionals to faciltate their placement in communities that no longer
have a hospita. PHS objected to ths because, " the curnt NHSC policy is to identiy those
designate Health Mapower Shortge Areas that have the gratest nee.. the present crteria
do not taget assignents only for communities that have hospita.


We agr. We              delete th          frm the fial report since
                                          recommendation                                      NHSC placements                can
be made in areas without hospitas, and the exitig NHC policies curntly                                  provide        for
placement of Corps personnel in aras that have the gratest nee.

The comments frm the H-ealth Care Financing Administration 
 suggest that our
recommendations were aied at keeping faing hospitas open, and that assistace should be
confed to hospitas more than a specifed distace from another hospita. We did not intend
that HCFA protect all faig hospitas from closur. As the transition grt progr suggests,
the best way to maita access to care may be to assist the hospita in modyig its service
offerigs to better meet community nees.

On the second point, our draf did not intend to suggest that HCFA' s assistace be                               confined


hospitas more than 10 miles from another hospita, or that HCFA adopt 10 miles as the
absolute crterion for decidig which communties should be assisted. We do, however
recommend that HCFA consider the proxiity of hospitas to each other when evaluatig
grant applicants, so that hospitas close to each other are 

                                                                           not     inadvertently funded over more
remote facilties.           Our research suggests that, if funds ar liited grts should be tageted on
hospitals distat           from other hospitas. HCFA suggests a greater distace -- 35 miles. We
would defer to HCFA on specifc mieage stadads. In order to clary our                                    recommendations,
we removed the reference to 10 miles and substitute the tenn "remote.

 In regard to HCFA' s general comments, we made the changes which update our inonnation
 where necessar.

                                                 APPENDIX A

           DEPARTMENT             OF    HEALTH   AND HUMAN SERVICES CRITERIA
                        RELATED        TO   MEDICAL PROVIDER SHORTAGES

Crteria for designation of a health manpower shortge ara:

      population to physician ratio is at least 3, 500:1; or

      population to physician ratio is between 3, 00:1 and 3, 500:1, plus unusualy high needs
      or insuffcient capacity, as defied by specific fonnulas for such indicators as number of
      birs, deaths, and office visits per physician; or
     prima medcal care manpower in contiguous aras             is overutiliz; excessively   distat;
      or inaccessible to the population, due to signicant differences in demogrphic or
      socio-economic chacteristics, or lack of economic access (Le., contiguous areas do not
      accept Medcaid or provide servces for those unable to pay).

HCFA classifes a sole community hospita ifit is located in a rual      are   and meets one of the
following conditions:

     located more than 35 mies from other           li hospitas;
     located between 25 and 35 mies from other lie hospitas ana meets one of the
     following crteria:
            no more than 25 percent of residents who become hospita inpatients or no more
             than 25 percent of the Medcar beneficies who-become hospita inpatients in
            the hospita' s service ara ar admtt to other lie hospitas located with a
             35-mie radus of the hospita, or, if larger, within its serce ara;

              the hospita has fewer than 50 bed and    the intermedi certes that the
              hospita would have met the criteria in the pargrph imedately above ths one
              were it not for the fact that some beneficiares or residents were forced to seek
              care outside the servce ara due to the unavailabilty of necessar specialty
              services at the community hospita; or

              due to local topography or periods of prolonged severe weather conditions, other
              like hospitals are inaccessible for at least one month out of each year.

     located between 15 and 25 miles from other lie hospitals but because of local
     topography or periods of prolonged severe weather conditions, other lie hospitas        are
     inaccessible for at least 30 days in each 2 out of 3 yrs. 5
                                      APPENDIX B

                      DEMOGRAPHICS              OF     RESPONDENTS

Household Composition

                             (20)                            (29)
                       Cluster A Towns                 Cluster B Towns
                                                                             Tota all Towns
                          with nearby                   without nearby
                            hospital                       hospital
                      Number         Percent          Number     Percent   Number     Percent
 Households                  143         40%              210        60%       353

 Members                    400          37%               671       63%      1071

 Sex
       Male                  196         49%               331       50%       527        49%

       Female               204          51%               337       50%       541        51%

 Missing
 Households by Age
 of Members
          TOTAL              143                           210                 353
       Al Elderly
                                         24%                         21%                  22%
       (age 65+)
       Al Adults
                                         30%                         21%                  25%
       (age 19- 64)

       Adults and
                                         11%
       Elderly only



       Adults and                                                                         42%
                                         35%                         47%        145
       Chdrn only
       Al ages

       Other
 Unkown




                                               B ­

Household Description

                         Cluster A Towns       Cluster B Towns
                          with nearby          without nearby        Total all Towns
                            hospita               hospital
                        Number    Percent     Number    Percent    Number     Percent
 Type of Insurance
 (Head of Household)

     Prvate                             64%       123       59%        213         61%

     Medicar                            26%                 20%                    22%

     Medcaid
     Other Govt.

     Unired                                                  11%

     Other
     Don t Know/
     Missing
       TOTAL                143                   210                  353
 Years lived in Town
       9 year                           12%                  14%                   13%

     10- 19 years                       13%                 21%                    18%

     20-49 year                         45%                 43%         154        44%

     50+ years                          30%                 21%                    25%
       TOTAL                143                   210                  353
 Household Income
     0-$5,

     $5, 000- 10, 000                                        15%                   12%

     $10, 000-15, 000                   19%                  14%                   16%

     $15, 00025, 000                    17%                 26%                    23%

     $25, 000-50, 000                   39%                  31%        107        34%

     $50, 000+

 TOTAL                      125                   189                   314

 Missing
Hospital izations



                         Cluster A Towns        Cluster B Towns
                           with nearby          without nearby         Total all Towns
                             hospital              hospital
                             Number                Number                 Number
 Hospitalizations by
 Household"'''

 Pror to Cosure:
     At Closed                                                               113
     Bypassed

 Subtota                                               111                   195

 Afr Cosur:

       TOTAL                    134                    156                   290
 Households in which
     no one was                                                              120
     hospitaze

** Household counts tota more than 353 because households are counted more than once when
members were hospitazed at dierent facilties or at dierent periods of time.
Hospitalizations

                          Cluster A Towns            Cluster B Towns
                           with nearby               without nearby      Total all Towns
                             hospital                   hospital
                         Number    Percent       Number       Percent       Number
 Hospitalizations by
 Incident
 Prior to Closure:
     Used closed                         28%                      54%             114

     Bypassed closed                     47%                      25%
     used next closest
     Bypassed next
     closest, used one                   25%                      21%
     beyond
     Subtota Bypassing                   72%                      46%             151

   TOTAL (Pior)              110                        155                       265

 After Closure:
     Used closest                        72%                      50%

     Used next closest                   28%                      50%
   TOTAL (After)                         100%                     100%            125

 Missing
 GRAND TOTAL
    (Por to and Afer         175                        219                       394
     Closure)




                                                B­
Hospitalizations

                    Cluster A Towns            Cluster B Towns
                     with nearby               without nearby     Tota all Towns
                       hospital                   hospital
                   Number    Percent          Number    Percent      Number
 Type of Care
 Received
    Inpatient          122         70%            153       70%           275
    Emergency                      30%                      30%            118

    Missing
     TOTAL             175                        219                     394




                                       B ­

                                         APPENDIX C

METHODOLOGY AND SAMPLE SELECTION

This inspection was designed to determe how access to medical care was afecte in rual
communities where hospitas closed in 1988. A strtified random sample of the residents of
these communities was sureyed by telephone durng September 1989.

Size and Source of Sample

The Inspector General' s report entitled "Hospita Closure: 1988" identifies 50 rual towns
where hospitas closed in 1988. In one of those towns the hospita reopened 5 months later.
The unverse for this study is people who live in the       remag 49 rual towns, and whose
telephone number preflXes match the closed hospitas         . By defig the universe in ths way,
we assured that households included in the samle ar (a) near the closed hospitas and,
therefore, (b) most liely to have been afected by the closure of the hospitas.

The complexity of the sequencig of questions reuied that the surey           be conducted
phone. Ninety- thee percent of U. S. households have a telephe; in          ru
                                                                      areas most
                               6 Prvious studies have foundthat-households with phones
households have listed numers.
differ demogrphicaly frm those wiout phones. The potetial bias intruce by these
differences was considered acceptable for this-stuy.

Stadad statistial equatons were used to determne that a          samle:of   35D   would prodce an
estimate with   5 percent of the   tre value at   the 95 pecent confidence level , using binar
questions. A sample of 350 permts generaliztion of fidigs across rual communties where
hospitas closed in 1988. This sample ize does not, however, permt analysis by individual
community.

A response rate of 60 percent was considered acceptable and acevable. Given this
expectation , a candidate pool of 600 names was drwn to obtain at least 350 complete
intervews.

Stratification: Procedures and Effects

The research team recognized that the 49 communities under study ar diverse, and that a bias
might be introduced into the fmdings if importt dierences were not identied and
controlled for. A major factor was presumed to be proximty to a still-operatig hospita. To
assure that we could measure the impact of this factor, and control for it, the 49 towns in the
study were divided into two groups, or " clusters. " Towns with a sti-open hospital in town or
within 10 miles were placed in Cluster A. Towns more than 10 mies from a sti-open
hospital were placed in Cluster B. Clusters A and B contaned 20 and 29 towns respectively.




                                                  C - 1

Analysis of the data at the conclusion of the study revealed that proxity to another hospita
is an importt factor and that 10 miles marked the most accurte place for distinguishig the
clusters. Analysis entaed dividig the sample into 3 groups (those with hospitas with 0­
miles, 11- 20 miles, and grater than 20 miles) and comparg the responses. Responses from
the midde group, those with a hospita between 11 and 20 mies away, more closely
resembled responses of those with a hospita more than 20 miles away.   Strtig      at 10 miles
increased the deviation between strata and deased the deviation withn strta, thus
maximizig the value of the stratified samplig.

The origial intent was to appropriately weight and combine the data collected from the two
clusters to achieve results generazable acss al  ru   towns where hospitas closed in 1988.
However, dratic dierences were found between the clusters for nearly al tabulations.
Ths fmal report is strctued around those dierences; fidigs for Cluster A and Cluster B
are presente separately thughout.

At a confdence level of 95 percent, estiates for Cluster A are with 8 percent of the tre
value, and for Cluster B with 7 percent, for binar questions where al respondents in the
cluster answered.

Pullng the Sample

Telephone diectories were collected from al 49 towns. The diectories were separate into
Cluster A and Cluster B.

Telephone diectories dier widely   in number and size of pages, number of columns per page,
prit size, and number of names per page. If these dierences are not accommodted, names
in denser phone books will have a lower probabilty of selection than those in books with
fewer names per page. In order to overcome ths lack of stadazation , each town was
assigned a weight based on its population relative to other communities in the cluster. With
ths adjustment, every name in the cluster had an equal probabilty of selection.


A Statistical Analysis System (SAS) program was used to generate a set of radom numbers.
These numbers were used to specify a telephone ditory page and a position on the page for
each of the 600 names to be drwn into the candidate pool. The research team--sta of the
Offce of Evaluation and Inspections (OEI) in Atlanta--puled the sample.




                                             C- 2

Out of the origial 60 names in the pool , 89 were found to be inappropriate (or impossible)
to include in the study:

                              were businesses (the study unverse was households)

                              individuals had lived in the town less than 5 year
                              (the study reuid 5 years ' residence)

                              had disconnected phones with no forwardig number
                              and could not be reached for intervew

The fmal candidate pool , then, contaed 511 names, representig households in residence         for
at least 5 years in rual towns where hospitas closed in 1988.

Data Collection

The researh   te prepared and sent a notication lettr to -expla the study and encourage
coperation with the telephone intervew to follow in 1 to 2 weeks.

The OEI sta developed a telephone intervew instrent with tehncal advice and assistace
frm the Director of Washigtn State University s Social and Ecnoc Sciences Researh
Center (SESRC).

The SESRC, a comprehensive surey organon, conducted th telephone intervews in
September 1989. At least four attmpts at varous ties of the day were mad to contat al
names in the candidae pool. On contact, interewer idenrledthe adult in the household
who makes most of the health car decisions, reminded       hier
                                                             of the purose of the study,
and proceeed though the questionnaie. Inteewers use a computer-assisted telephone
intervewig system    to collect and enter data.

Response Rate

Of the 511 households appropriately included in the sample:

                              refused to be intervewed

                               could not be reached by phone

                               could not   be   intervewed due to language or hearg   diculties
The remainig 353    households were intervewed, producing a surey      response   rate of 69
percent
                                                                    ENDNOTES



      Respondents defined " serious problem" for themselves; the interviewers did not provide
any defmition. Respondents were asked if gettg hospital car is a serious problem, a mid
problem or not a problem for them or members of the household. The same question was
posed for getting emergency car. Approximately 20 percent of respondents in both clusters,
regardless of demogrphic characteristics, reported havig a mid problem gettig either
emergency or general hospita car.

         Chrstopher Hogan. 
  Patterns of Travel for Rural Individuals Hospitalized in New York
State    (Washigton , D. C. : National Center for Health Services Research , 1986), and
         Minnesota Deparent of                       Health.             Access to Hospital Services in Rural Minnesota,
         March 1989, and

         LuAnn Aday, Ron Anderson, Grtchen Flemig.       Access to Medical Care in the U.



         (Chicago, n. : University of Chicago, Center for Health Admistration , 1984), p. 69, and


          S. M. Cageorge, L. L. Roos, and R. Danziger Galbladder Operations: A Population-
          based Analysis, Medical Care 
 1981: 19, pp. 510- 525.

          The median income for rual areas in 1988 was $25, 894 accordig to:  Current
Population Report, 
    Money Income and Povert Status in U. S. - 1988, " Series P- 60, No. 166.

         Federal Register, 
             Vol. 45, No. 223, November 17, 1980, Appendi A, pp. 76001- 76003.

          Code of Federal Regulations                          42, Ch.         (10-   89 Edtion), section 412. 92.


        6ne Robert Wood Johnson Foundation                                    Access to Health Care in the United States:
Results of a        1986       Survey,     Special Report, Number                 Two/1987   (Pnceton , N. J. : The Robert
Wood Johnson Foundation).




                                                                             D ­

